No._____________

In The
Supreme Court of the United States
CHARLES MICHAEL LEDFORD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under
penalty of perjury that the following is true and correct.
On this, the 8th day of April, 2021, Pursuant to (ORDER LIST: 589
U.S.) I filed the foregoing petition with the United States Supreme Court
electronically and deposited one (1) paper copy via UPS Ground
Transportation, and served via electronic mail of the same, to the following:
Solicitor General of the United States
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Amy E. Ray
OFFICE OF THE
UNITED STATES ATTORNEY
United States Courthouse
100 Otis Street, Room 233
Asheville, NC 28801
(828) 271-4661
Counsel for Respondent
Karen R. Taylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
J. Edward Yeager, Jr.
Counsel of Record
ATTORNEY AT LAW
P. 0. Box 1656
Cornelius, NC 28031
(704) 490-1518 - Telephone
(866) 805-6191 - Facsimile
yeager@ncappeals.net
Counsel for Petitioner
Signed and subscribed before me on this 8th day of April, 2021.

